No.______________________
IN THE SUPREME COURT OF THE UNITED STATES
TYRIUS GREEN
Petitioner
v.
ATTORNEY GENERAL, STATE OF NEW JERSEY AND
STEPHEN M. D’ILIO, ADMINISTRATOR, NEW JERSEY
STATE PRISON
Respondents
PETITION FOR WRIT OF CERTIORARI
CERTIFICATE OF SERVICE
I, George Keefer, appointed below pursuant to the Criminal Justice Act, 28
U.S.C. §3006A, to represent Tyrius Green, hereby certifies that on the 30th day of
July, 2021, I caused to be served one paper copy of the Petition for Writ of Certiorari,
Appendix and Motion to Proceed In Forma Pauperis in the above- referenced case
by first-class mail, postage prepaid, upon the counsel for Respondents as listed
below:
Elizabeth M. Newton, Esq.
Assistant Prosecutor
Mercer County Prosecutor’s Office
209 South Broad Street, 3rd Floor
Trenton, NJ 08650-0068
609-989-6351

Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Petition for Writ of Certiorari, Appendix and Motion to Proceed In
Forma Pauperis were transmitted to counsel for Respondents via email to
enewton@mercercounty.org.
I further certify that all parties required to be served have been served.
Respectfully submitted,
/s/ George W. Keefer
Counsel for Petitioner
GEORGE W. KEEFER, ESQ.
930 Park Avenue, Apt 4
Hoboken, NJ 07030
201-787-8684

